           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


   CABINET FOR FAMILIES AND CHILDREN,
   DEPARTMENT FOR COMMUNITY BASED
  SERVICES, DIVISION OF PROTECTION AND
    PERMANENCY – AN ORGANIZATIONAL
  REPRESENTATIVE PAYEE FOR THE SOCIAL
        SECURITY ADMINISTRATION


    March 2004        A-08-03-13084




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                             SOCIAL SECURITY
MEMORANDUM

Date:   March 10, 2004                                                                   Refer To:

To:     Paul D. Barnes
        Regional Commissioner
         Atlanta

From:   Assistant Inspector General
         for Audit

Subject: Cabinet for Families and Children, Department for Community Based Services, Division
        of Protection and Permanency - An Organizational Representative Payee for the Social
        Security Administration (A-08-03-13084)


        OBJECTIVE

        Our objectives were to determine whether the Cabinet for Families and Children,
        Department for Community Based Services, Division of Protection and Permanency,
        (CFC) (1) had effective safeguards over the receipt and disbursement of Social Security
        benefits and (2) ensured Social Security benefits were used and accounted for in
        accordance with the Social Security Administration’s (SSA) policies and procedures.

        BACKGROUND
        Some individuals cannot manage or direct the management of their finances because of
        their youth or mental and/or physical impairments. Congress granted SSA the authority
        to appoint representative payees to receive and manage these beneficiaries’1 benefit
        payments.2 A representative payee may be an individual or an organization. SSA
        selects representative payees for Old-Age, Survivors and Disability Insurance (OASDI)
        beneficiaries or Supplemental Security Income (SSI) recipients when representative
        payments would serve the individual’s interests.

        CFC, a State agency in Kentucky, serves as a court-appointed legal custodian for
        children. CFC services include adoption, foster care, and protective services to children
        and families with children. CFC’s child beneficiaries generally live in foster care homes,
        group homes or institutions. CFC serves over 6,200 children and was the

        1
          We use the term “beneficiary” generically in this report to refer to both OASDI beneficiaries and SSI
        recipients.
        2
            42 U.S.C. §§ 405(j), 1383(a)(2) (2003).
Page 2 – Paul D. Barnes

representative payee for 1,683 SSA beneficiaries from April 1, 2002 through
March 31, 2003. During this period, SSA paid CFC approximately $277,000 for our
100 sample beneficiaries. See Appendices B and C for a detailed discussion of the
Background, Scope and Methodology of this report.

RESULTS OF REVIEW

CFC generally (1) had effective safeguards over the receipt and disbursement of Social
Security benefits and (2) ensured Social Security benefit payments were used and
accounted for in accordance with SSA's policies and procedures. However, we
identified the following areas where CFC needs to improve its performance as a
representative payee.

•   CFC did not identify SSI beneficiaries who were receiving other Federal benefits,
    resulting in $16,687 in overpayments.3

•   CFC did not identify beneficiaries with excess SSI resources, resulting in $3,417 in
    overpayments.4

•   CFC did not timely report that a beneficiary had run away.

•   Federal deposit insurance of beneficiary trust funds was at-risk because CFC’s

        •   general beneficiary funds were commingled with other State funds in
            Kentucky’s General Depository account and

        •   the dedicated account title did not identify the fiduciary relationship between
            CFC and the beneficiaries.

We also determined that information in SSA’s Representative Payee System (RPS) was
not always accurate or differed from Agency payment records.




3
  This amount includes 4 overpayments ($7,998) from our 100 sample beneficiaries and 2 overpayments
($8,689) outside our sample. The $7,998 represents less than 3 percent of the total benefits
($277,000) SSA paid to our sample beneficiaries. We excluded the $8,689 from this percentage because
the 2 overpayments were outside our sample.
4
 We identified 2 overpayments during our review of all SSI beneficiaries’ conserved fund balances in our
population of 1,683 children. A portion of these overpayments extended beyond our audit period.
Page 3 – Paul D. Barnes

CFC Did Not Identify Beneficiaries’ Receipt of Other Federal Benefits

We found six instances in which CFC did not identify that beneficiaries were receiving
Title IV-E income.5 As a result, these individuals received $16,687 in SSI
overpayments. SSA policy states that foster care payments made under Title IV-E are
based on the need of the individuals in care. When beneficiaries receive Title IV-E
income, SSA reduces SSI payments dollar for dollar.6

The $16,687 in overpayments includes 4 overpayments ($7,998) from our 100 sample
beneficiaries and 2 overpayments ($8,689) outside our sample.7 Because the items
outside our sample came to our attention during this review, we included them in the
total amount. In addition, a portion of these overpayments extended beyond our audit
period. The following table provides details on the SSI overpayments.

    SSI Case              Sample                   SSI Overpayment              Number of Months
    Number               Beneficiary                   Amount                      Overpaid
        1                   Yes                          $6,911                       14
        2                    No                           5,520                       10
        3                    No                           3,169                         6
        4                   Yes                             814                       10
        5                   Yes                             141                         2
        6                   Yes                             132                         1
     Total                                              $16,687
Note: SSA issued partial benefits to all beneficiaries except for SSI case number two.

CFC agreed with our overpayment findings and returned the $16,687 to SSA. CFC
stated that its new monthly management report, Child Trust Fund Active Out of Home
Care, will assist in identifying SSI beneficiaries who receive Title IV-E income.

We believe CFC did not routinely identify all beneficiaries who were receiving Title IV-E
income during our audit period, as evidenced by the cases we identified. If the
4 overpayments ($7,998) in our 100 sample reflect CFC’s beneficiary population of
1,683 children, we would expect to find that SSA overpaid beneficiaries about
$135,000 because of unreported Title IV-E income.8 We believe CFC would benefit by
reviewing all SSI recipients’ records to ensure it has identified and reported all Title IV-E
income.


5
 Title IV, Part E of the Social Security Act provides for Federal payments to the states for foster care
maintenance and adoption assistance payments on behalf of certain eligible children. 42 U.S.C. § 670 et
seq.
6
    Program Operations Manual System (POMS), SI 00830.410 and SI 00830.170.
7
 We discovered the 2 overpayments outside the 100 sample during our review of beneficiaries with
excess SSI resources.
8
    The two overpayments outside our sample were not used in this estimation.
Page 4 – Paul D. Barnes

CFC Did Not Identify Beneficiaries with Excess SSI Resources

CFC did not identify two beneficiaries who had conserved funds over the SSI resource
limit. As a result, these individuals received $3,417 in SSI overpayments.

SSA policy states that, beginning January 1, 1989, individuals with countable resources
exceeding $2,000 must use those excess resources to meet their needs before they
receive SSI payments. SSA makes eligibility determinations based on resource
amounts at the beginning of each month.9

CFC agreed with our finding and returned the overpayments to SSA. CFC stated that
its Child Trust Fund Active Out of Home Care report will assist in identifying
beneficiaries whose conserved funds may exceed the SSI resource limit.

CFC Did Not Timely Report That a Beneficiary Had Run Away

Regulations require that representative payees report any event that will affect the
amount of payments beneficiaries receive or their right to receive such benefits.10
However, CFC did not report to SSA that a child had run away from his foster home
because its field staff had not reported this situation to its central office.11 CFC was
unaware of this situation until we requested a meeting with the beneficiary. As a result,
SSA suspended the beneficiary’s OASDI benefits.

The Federal Deposit Insurance of Beneficiary Trust Funds Was At-Risk

The Federal deposit insurance of beneficiary trust funds was at-risk because CFC’s
(1) general beneficiary funds of approximately $600,000 were commingled with other
State funds in Kentucky’s General Depository account, and (2) a dedicated account of
about $285,000 lacked a title identifying the fiduciary relationship between CFC and the
beneficiaries.

SSA policy states that a representative payee may establish collective checking and
savings accounts to hold monies belonging to several beneficiaries. However, to
protect beneficiaries’ funds in case of bank failure, each account must be separate from
the agency’s operating account, and the account title must show the funds belong to the
beneficiaries and not the representative payee.12 The account must be in a form that



9
    POMS, SI 01110.001 and SI 01110.003.
10
     20 CFR §§ 404.2035(b) & 416.635(b).
11
 On July 14, 2003, the foster home notified CFC field staff that a child under its care had run away.
CFC’s central office notified SSA of the child’s status on September 24, 2003.
12
     POMS, GN 00603.020.
Page 5 – Paul D. Barnes

clearly shows the representative payee has only fiduciary and not personal interest in
the funds.13

CFC’s general beneficiary funds14 were commingled with other State funds in
Kentucky’s General Depository account. We believe CFC needs to remove its general
beneficiary funds from the State’s General Depository account and establish a more
specific title that expressly shows a custodian-ward relationship to guarantee its
beneficiaries’ deposits will be maximally insured by deposit insurance (see our
suggested account title below).15 CFC’s general beneficiary fund balance, as of
September 2003, was over $600,000 in Kentucky’s General Depository account.

Also, CFC had not established a properly titled bank account for beneficiaries receiving
dedicated SSI payments.16 The bank account title does not show the beneficiaries as
owners of the account. To guarantee that the Federal Deposit Insurance Corporation
(FDIC) insures each beneficiary’s funds,17 CFC should modify the current title of its
dedicated account (Child Dedicated SSI Funds) to a more specific title, such as CFC
Representative Payee Trust Fund of Dedicated Social Security Benefits for Current
Wards of the State. CFC’s dedicated account balance, as of September 2003, was
over $285,000.

SSA acknowledged that Agency policy requires that beneficiary trust fund accounts be
separate from the representative payee’s operating accounts. SSA stated it is aware of
Kentucky’s practice of commingling beneficiary funds with other State funds and is
taking steps to address this issue. SSA agreed that CFC should retitle its dedicated
account to show the beneficiaries as account owners. We believe SSA should act
expeditiously to ensure that beneficiaries’ funds are adequately protected.




13
     20 CFR §§ 404.2045 & 416.645.
14
     These funds are regular monthly OASDI and SSI benefits.
15
     12 CFR §330.5(b)(1).
16
  CFC established a separate dedicated account for SSI beneficiaries who are disabled/blind, under
age 18, and who have received certain past-due benefit payments made on or after August 23, 1996.
17
  When a representative payee is acting for more than one ward relative to the maintenance of deposit
accounts and the representative payee commingles the wards’ benefits in custodian trust accounts, each
ward, provided that certain conditions are satisfied, would be given insurance coverage up to $100,000.
See 12 C.F.R. § 330.7(a).
Page 6 – Paul D. Barnes

Representative Payee System Data Were Not Accurate or Differed from SSA
Payment Records

The information in SSA’s RPS was not always accurate or differed from the Agency’s
Master Beneficiary Record (MBR) or Supplemental Security Record (SSR).18 SSA has
established the RPS, an on-line system for entering and retrieving information about
representative payees and those applying to be representative payees.19 RPS includes
general information about current and prior representative payees, the number of
beneficiaries/recipients for whom the applicant has applied or been selected, misuse
information, and a list of the beneficiaries/recipients in the representative payee’s care.

To determine the beneficiaries in CFC’s care, we compared its beneficiary records to
SSA’s beneficiary records. We found the following discrepancies in SSA records during
our review.

•     RPS listed CFC as the representative payee for 22 beneficiaries. However, SSA did
      not send any payments to CFC for these beneficiaries because the MBR/SSR
      address or bank data were for other representative payees. CFC should have
      received payments for 3 of the 22 beneficiaries.

•     RPS did not list CFC as the representative payee for 40 of its beneficiaries.

•     RPS listed CFC as the pending representative payee for 39 beneficiaries, although
      CFC was the active representative payee.

We identified two potential causes for RPS errors and discrepancies in SSA records. In
some instances, SSA personnel can bypass RPS and post representative payee
information to the payment record (MBR/SSR). In addition, SSA stated that a data link
between the SSR and RPS failed from September through November 2002, which
caused active payees to remain listed as pending in RPS. Inaccurate RPS information
could cause SSA to use erroneous data in its oversight and evaluation of representative
payees. We provided SSA the names of the affected beneficiaries so the Agency could
correct its records.




18
  The MBR is an SSA system of records containing information about OASDI beneficiaries. The SSR is
an SSA system of records containing SSI recipient information.
19
     See 42 U.S.C. § 405(j)(2) (2002).
Page 7 – Paul D. Barnes

CONCLUSION AND RECOMMENDATIONS
Generally, CFC met its representative payee responsibilities. However, CFC needs to
strengthen its controls and procedures to reduce the potential for overpayments and
loss of beneficiary funds. In addition, SSA needs to improve the accuracy of information
contained in its RPS and payment records.

We recommend that SSA:

1. Direct CFC to review its SSI recipient records and inform SSA of any unreported
   Title IV-E income.

2. Re-emphasize to CFC the procedures for notifying SSA when events occur that
   affect the eligibility of individuals in its care.

3. Direct CFC to remove its general beneficiary funds from Kentucky’s General
   Depository account and establish a specific title that expressly shows a
   custodian-ward relationship to guarantee its payees’ deposits will be maximally
   insured by deposit insurance.

4. Direct CFC to modify its dedicated account title to specifically identify the fiduciary
   relationship between it and the beneficiaries.

5. Correct the RPS and/or Agency payment record information and implement controls
   or procedures to prevent future discrepancies.

AGENCY COMMENTS

Regarding Recommendation 1, SSA stated the Kentucky Area Director’s Office will
request a list of all SSI recipients who received Title IV-E income and will review each
case to ensure that Title IV-E income was properly posted. SSA stated it will take
corrective action as necessary.

SSA agreed with Recommendation 2 and stated that its parallel District Office will host a
meeting with CFC to discuss the importance of promptly reporting events that affect
individuals’ eligibility and payment.

Regarding Recommendation 3, SSA stated its Central Office is aware of Kentucky’s
fiscal policy. SSA stated that Kentucky established a master account with sub accounts
for each State agency (including CFC) and maintains details for each beneficiary. SSA
is exploring whether this arrangement is in compliance with Agency policy. SSA stated
that once a final determination is made, it will notify CFC. In addition, SSA stated it is
consulting with its Regional Office of General Counsel for clarification of FDIC rules to
determine whether each beneficiary is appropriately insured.
Page 8 – Paul D. Barnes

Regarding Recommendation 4, SSA stated that its Kentucky District Office will discuss
the possibility of CFC implementing the dedicated account title modification. Again, as
SSA stated in its response to Recommendation 3 above, this issue may not be resolved
until its Central Office makes a determination whether Kentucky’s fiscal policy
arrangement is in compliance with Agency policy.

SSA agreed with Recommendation 5 and stated it has taken action to correct the RPS
and/or Agency payment record for the cases identified during this audit. Additionally,
SSA plans to issue a reminder to all SSA employees in Kentucky regarding proper
procedures for posting representative payee information to the payment record.

The full text of SSA’s comments is included in Appendix D.

REPRESENTATIVE PAYEE COMMENTS
Regarding Recommendation 1, CFC stated, effective November 1, 2002, it directed
staff to change reporting practices of Title IV-E. CFC plans to review all children for
whom it was the representative payee during the audit period and all new applicants for
benefits. CFC stated it will return to the appropriate benefit agency any SSI or Title IV-E
overpayments identified.

Regarding Recommendation 2, CFC stated it has issued a policy memorandum to
reinforce the Division’s Standard of Practice which requires staff to immediately report
events that affects an individual’s eligibility. CFC also stated this issue will be a topic of
discussion at the next meeting with the Service Region Administrators, who oversee
field staff.

Regarding Recommendation 3, CFC stated that it believes 12 CFR 330.5(b) and
12 CFR 330.1(e) affords alternative means of appropriate labeling of the funds, such as
identification through account ledgers, signature cards, or records maintained by
computer which relate to the insured depository institution’s deposit taking function.
Therefore, CFC believes it is in compliance with Recommendation 3.

Regarding Recommendation 4, CFC stated that it has two bank accounts set up for the
Child Dedicated Trust Fund. One account is for receipts and disbursements and the
other account is for the interest earned on the dedicated account.

The full text of the Representative Payee’s comments is included in Appendix E.
Page 9 – Paul D. Barnes

OIG RESPONSE
We believe SSA’s and the Representative Payee’s responses and planned actions
adequately address Recommendations 1, 2, and 5.

Regarding SSA’s and the Representative Payee’s responses to Recommendations
3 and 4, we acknowledge and appreciate SSA’s commitment to determining whether
Kentucky’s fiscal policy is in compliance with the Agency’s policy. We urge SSA to work
closely with the Representative Payee and the FDIC to resolve whether the practice
followed by the Representative Payee is in compliance with SSA and FDIC policy.




                                              S
                                              Steven L. Schaeffer
Page 10 – Paul D. Barnes

OTHER MATTER

SSA’s Retrieval of Representative Payee Reports

One method SSA uses to monitor representative payees is the Representative Payee
Report (RPR). The RPR assists SSA in determining the (1) use of benefits during the
preceding 12-month reporting period, (2) representative payee’s continuing suitability,
and (3) continuing need for representative payment.20 Depending on the representative
payee’s responses, SSA may contact the representative payee to determine its
continued suitability. We found that SSA could not always retrieve CFC-completed
RPRs.

To determine whether CFC properly reported to SSA how benefits were used, we
requested that SSA provide the most recently completed RPRs for 100 of CFC’s
beneficiaries. SSA only provided seven of the requested RPRs. We believe CFC may
not have been the representative payee long enough for SSA to provide an RPR for
14 beneficiaries. For the remaining 79 beneficiaries, SSA could not provide RPRs.




20
     See POMS, GN 00605.001.
                                Appendices
APPENDIX A – Acronyms

APPENDIX B – Background

APPENDIX C – Scope and Methodology

APPENDIX D – Agency Comments

APPENDIX E – Representative Payee Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                         Appendix A

Acronyms
CFC     Cabinet for Families and Children, Department for Community Based
        Services, Division of Protection and Permanency

CFR     Code of Federal Regulations

FDIC    Federal Deposit Insurance Corporation

MBR     Master Beneficiary Record

OASDI   Old-Age, Survivors and Disability Insurance

POMS    Program Operations Manual System

RPR     Representative Payee Report

RPS     Representative Payee System

SSA     Social Security Administration

SSI     Supplemental Security Income

SSR     Supplemental Security Record

USC     United States Code
                                                                                     Appendix B

Background
Some individuals cannot manage or direct the management of their finances because of
their youth or mental and/or physical impairments. Congress granted the Social
Security Administration (SSA) the authority to appoint representative payees to receive
and manage these beneficiaries’1 benefit payments.2 A representative payee may be
an individual or an organization. SSA selects representative payees for Old-Age,
Survivors and Disability Insurance (OASDI) beneficiaries or Supplemental Security
Income (SSI) recipients when representative payments would serve the individual’s
interests.

Representative payees are responsible for using benefits to serve the best interests of
the beneficiary or recipient. Their duties include

•     using benefits to meet the beneficiary’s current and foreseeable needs,

•     conserving and investing benefits not needed to meet the beneficiary's current
      needs,

•     maintaining accounting records of how the benefits are received and used,

•     reporting events to SSA that may affect the beneficiary's entitlement or benefit
      payment amount,

•     reporting any changes in circumstances that would affect their performance as a
      representative payee, and

•     providing SSA an annual Representative Payee Report accounting for how benefits
      were spent and invested.3




1
  We use the term “beneficiary” generically in this report to refer to both OASDI beneficiaries and SSI
recipients.
2
    42 U.S.C. §§ 405(j), 1383(a)(2).
3
    See id.; 20 Code of Federal Regulations (C.F.R.) §§ 404.2001 et seq. & Part 416.501 et seq.
                                                                      Appendix C

Scope and Methodology
Our audit covered the period April 1, 2002 through March 31, 2003.

To accomplish our objectives, we:

•   Reviewed the Social Security Act and the Social Security Administration’s (SSA)
    policies and procedures pertaining to representative payees.

•   Contacted SSA regional office and field office staff to obtain background information
    about the Cabinet for Families and Children, Department for Community Based
    Services, Division of Protection and Permanency’s (CFC) performance as a
    representative payee.

•   Obtained from SSA’s Representative Payee System (RPS) a list of individuals who
    were in CFC’s care between April 1, 2002 and March 31, 2003.

•   Obtained from CFC a list of individuals who were in its care between April 1, 2002
    and March 31, 2003.

•   Compared and reconciled the RPS and the CFC list to identify the population of SSA
    individuals who were in CFC’s care from April 1, 2002 through March 31, 2003.

•   Reviewed and tested CFC’s internal controls over the receipt and disbursement of
    SSA benefit payments.

•   Reviewed all SSI beneficiary account balances to determine whether conserved
    funds exceeded the $2,000 resource limit.

•   Performed the following tests for our 100 sample beneficiaries.

    -   Compared and reconciled benefit amounts paid according to CFC records to
        benefit amounts paid according to SSA’s payment records.

    -   Reviewed CFC accounting records to determine whether benefits were properly
        spent or conserved on the individual’s behalf.

•   Traced 1 sample expense, for 25 beneficiaries, to source documents and examined
    the underlying documentation for reasonableness and authenticity.

•   Interviewed 10 beneficiaries, personal guardians, or caregivers to determine whether
    beneficiaries’ basic needs were being met.



                                                                                         C-1
•   Reviewed seven Representative Payee Reports to determine whether CFC properly
    reported to SSA how benefits were used.

•   Reviewed 10 representative payee applications (Form SSA-11-BK) to evaluate the
    completeness and appropriateness of the information provided on the applications.

We determined CFC’s computer-processed data to be sufficiently reliable for our
intended use. Further, any data limitations are minor in the context of this assignment,
and the use of the data should not lead to an incorrect or unintentional message. We
tested benefit payment receipts and disbursements recorded in CFC's accounting
system. We conducted tests to determine the completeness, accuracy and validity of
the data. These tests allowed us to assess the reliability of the data and achieve our
audit objectives. We performed our audit in Frankfort, Kentucky, and Birmingham,
Alabama, from April to November 2003. We conducted our audit in accordance with
generally accepted government auditing standards.




                                                                                      C-2
                  Appendix D

Agency Comments
                                     MEMORANDUM


Date:     February 20, 2004

To:       Assistant Inspector General
          Office of Audit
          Attn: Steven L. Schaeffer

From:     Regional Commissioner
          Atlanta

Subject: Cabinet for Families and Children (CFC), Department for Community Based
Services, Division of Protection and Permanency - An Organizational Representative
Payee for the Social Security Administration (A-08-03-13084)


Thank you for the opportunity to review the findings of your recent audit. We offer the
following comments:

Recommendation # 1 - Direct CFC to review its SSI recipient records and inform SSA of
any unreported Title IV-E income.

Comments: We concur with this proposal. A written statement will be released from the
Kentucky Area Director's Office requesting a list of all SSI recipients that receive Title
IV-E income. A review of each case will be made to ensure Title IV-E income is
properly posted. Corrective action will be taken on each case as necessary.

Recommendation # 2 - Re-emphasize to CFC the procedures for notifying SSA when
events occur that affect the eligibility of individuals in its care.

Comments: The parallel District Office will host a meeting with CFC to discuss the
importance of timely reporting of events that affect eligibility and payment of individuals.
Also, a new computer system has been implemented allowing local social workers to
make direct input into the system regarding changes. This is a state wide system and
will require some time to fully train all employees. We expect significant improvement in
timely reporting once the system is fully operational.

Recommendation # 3 - Direct CFC to remove its general beneficiary funds from
Kentucky's General Depository account and establish a specific title that expressly
shows a custodian-ward relationship to guarantee its payees' deposits will be maximally
insured by deposit insurance.

Comments: Kentucky's fiscal policy is established as a master account with sub
accounts for each agency. They maintain details for each beneficiary, including exact
amount used and held for each individual. In the past, the State has been adamant that


                                                                                         D-1
this policy cannot be changed. However, Central Office is aware of this issue and is
exploring whether this arrangement is in compliance with SSA policy (GN
02402.050.B.2). Once a final determination is made, notification will be provided to the
payee. In addition, we are consulting with our Regional Office of General Counsel for
clarification of FDIC rules (12 C.F.R. 330.5 and 12 C.F.R 330.15) to determine whether
the Kentucky accounting system is considered a "public unit account", and
whether each beneficiary is insured up to the standard $100,000.

Recommendation #4 - Direct CFC to modify its dedicated account title to specifically
identify the fiduciary relationship between it and the beneficiaries.

Comments: The local parallel District Office will discuss the possibility of CFC
implementing the dedicated account title modification. Again, this issue may not be
resolved until a CO determination is made per #3 above.

Recommendation #5 - Correct RPS and/or Agency payment record information and
implement controls or procedures to prevent future discrepancies.

Comments: Action has been taken to correct the RPS and/or Agency payment record
for the cases identified in the review. A reminder will be issued to all Kentucky SSA
employees regarding the proper procedures for posting representative payee
information to the payment record.


Please let me know if you have further questions, or your staff may contact Barbara
Luke at 404-562-1322.


                                          /s/
                                    Paul D. Barnes




                                                                                       D-2
                                Appendix E

Representative Payee Comments
ERNIE FLETCHER                      Cabinet For Health and Family              JAMES W. HOLSINGER, JR., M.D.
 GOVERNOR                                                                            SECRETARY
                                              Services
                                          OFFICE OF THE SECRETARY
                                        275 EAST MAIN STREET, 5W-A
                                      FRANKFORT, KENTUCKY 40621-0001
                                     (502) 564-7042 (502) 564-7091 FAX
                                              WWW.KENTUCKY.GOV


       February 19, 2004

       Mr. Paul D. Barnes
       Regional Commissioner
       Regional Public Affairs Office
       Social Security Administration
       61 Forsyth St. SW Suite 23T29
       Atlanta, Georgia 30303-8907

       Dear Mr. Barnes:

       The Cabinet for Health and Family Services has reviewed the draft report, “Cabinet for
       Families and Children, Department for Community Based Services, Division of
       Protection and Permanency – An Organizational Representative Payee for the Social
       Security Administration (A-08-03-13084)”. Thank you for the opportunity to present our
       views relative to the validity of the facts presented in the audit report. For clarification,
       since the conclusion of the audit, the Cabinet for Families and Children and the Cabinet
       for Health Services merged, and renamed the Cabinet for Health and Family Services.

       I am pleased that the results of the review found that the Cabinet generally had effective
       safeguards over the receipt and disbursement of Social Security benefits and ensured
       Social Security benefit payments were used and accounted for in accordance with the
       Social Security Administration’s (SSA) policies and procedures. In regard to the audit
       report recommendations to strengthen controls and procedures to reduce the potential
       for overpayments and loss of beneficiary funds (page 6 of the draft audit report), I have
       the following comments:

       •   Recommendation: Direct CFC to review its SSI recipient records and inform SSA of
           any unreported Title IV-E income.

           Comment: Effective November 1, 2002, the Cabinet directed staff to change
           reporting practices of Title IV-E. Since that time, there should have been no new SSI
           applications for children resulting in concurrent Title IV-E and Supplemental Security
           Income (SSI) benefits. However, the Department for Community Based Services
           (DCBS) will review all children for whom the Cabinet was representative payee


                                                                                                  E-1
    during the audit period of April 1, 2002 through March 31, 2003. Further, DCBS will
    systematically review all new applicants for benefits. Any overpayment of SSI or Title
    IV-E identified will be returned to the appropriate benefit agency.

•   Recommendation: Re-emphasize to CFC the procedures for notifying SSA when
    events occur that affects the eligibility of individuals in its care.

    Comment: The Division of Protection and Permanency has issued a policy
    memorandum to reinforce the directive and procedures contained in the Division’s
    Standard of Practice that requires staff to immediately report such events that affect
    an individual’s eligibility (enclosed). Further, this issue will be a topic of discussion at
    the next meeting with the Service Region Administrators, who oversee DCBS field
    staff.

•   Recommendation: Direct CFC to remove its general beneficiary funds from
    Kentucky’s General Depository account and establish a specific title that expressly
    shows a custodian-ward relationship to guarantee its payees’ deposits will be
    maximally insured by deposit insurance.

    Comment: Kentucky State Government has a general depository account with the
    Farmer’s Bank for revenues to the Commonwealth. The Children’s regular deposits
    from the Social Security Administration are deposited into that account, then sub-
    accounted into an Off-Budget Restricted account. The funds in this sub-account are
    protected from the regular budget disbursement across state government. Enclosed
    is a record of all Off-Budget accounts under the purview of Families and Children.
    The Z050 account is the Children’s Regular account and is restricted for the use of
    the child beneficiaries’ daily care and support while in the custody of, or committed
    to, the state.

    The Treasurer's General Depository Account is the account through which almost all
    transactions are conducted. To set up new central level accounts requires:
        (1) A reprogramming of the MARS accounting structure;
        (2) Changes to the TWIST system that houses the Trust Fund Individual Ledger
            computer program; and
        (3) An amendment to the state's banking services contract with Farmers Bank.

    The Cabinet can only expand the number of central level bank accounts if
    specifically required to do so by federal statute or regulation. Upon review of 12 CFR
    330.5(b) and 12 CFR 330.1(e), we believe that the regulation affords alternative
    means of appropriate labeling of these funds, such as identification through account
    ledgers, signature cards, or records maintained by computer which relate to the
    insured depository institution’s deposit taking function. Therefore, we believe that
    the Cabinet is in compliance with the recommendation of the draft audit report.




                                                                                             E-2
•   Recommendation: Direct CFC to modify its dedicated account title to specifically
    identify the fiduciary relationship between it and the beneficiaries.

    Comment: Research has clarified some additional information on the dedicated
    account. There are currently two accounts set up for the Child Dedicated Trust
    Fund. The basic account is is the transaction account for all receipts and
    disbursements. For accounting purposes, there also exist an interest account. This
    allows Farmers Bank to segregate the interest earned on the Child Dedicated Trust
    Fund account. We apologize for not having this information during the review.

The Cabinet for Health and Family Services is committed to ensuring that all of our
programs fully comply with the applicable federal laws and regulations. If you have
questions about the above comments, please contact Mike Robinson, Commissioner of
the Department for Community Based Services, at (502) 564-7130.

Sincerely,



Dr. James W. Holsinger
Secretary


cc: Mr. Steven L. Schaeffer, Assistant Inspector General for Audit

Enclosures




                                                                                       E-3
                                                                       Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kim Byrd, Director, (205) 801-1605

   Jeff Pounds, Audit Manager, (205) 801-1606


Acknowledgments

In addition to the persons named above:

    Walter Bayer, Director

    Theresa Roberts, Auditor-in-Charge

    Kenley Coward, Program Analyst

    Kimberly Beauchamp, Writer-Editor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-08-03-13084.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
Dr. James W. Holsinger, Secretary of the Cabinet for Health and Family Services
                   Overview of the Office of the Inspector General


                                        Office of Audit


The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                               Office of Executive Operations

The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
the Agency, as well as conducting employee investigations within OIG. Finally, OEO
administers OIG’s public affairs, media, and interagency activities and also communicates OIG’s
planned and current activities and their results to the Commissioner and Congress.

                                   Office of Investigations

The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General

The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
